                  MEMORANDUM REPORT 01-IT-M-082 - REDACTED
                 Senior Management Attention Needed to Ensure Effective
            Implementation of the Government Information Security Reform Act
                                     September 2001


        In response to the Government Information Security Reform Act (GISRA), Public Law
106-398, the Office of Inspector General (OIG) performed an independent evaluation of the
information security program and practices of the Department of State (Department). The
Government Information Security Reform Act provides: (1) a comprehensive framework for
establishing and ensuring the effectiveness of controls over information resources; and (2) a
mechanism for improved oversight of Federal agency information security programs. The
objective of our review was to determine whether the Department is effectively implementing
key requirements of GISRA, including those pertaining to security planning and risk
management, information security roles and responsibilities, training, and performance
measures.

RESULTS IN BRIEF

        OIG’s evaluation of the effectiveness of the Department’s information security program
found mixed results. Specifically, OIG concluded that information security weaknesses continue
to threaten Department operations, both here and abroad. Both OIG and Bureau of Diplomatic
Security (DS) evaluation reports over the past 2 years identified weak information security
management practices at dozens of overseas posts. For example, only 10 of the 35 posts in one
geographic region reviewed by OIG security teams in 1999 and 2000 were reported to have
adequate information security procedures in place. Further, according to OIG’s survey
questionnaire, although 59 percent of the Department’s 371 systems are reported to have risk
assessments, only 10 percent are reported to have security plans, as required by GISRA.

        On the other hand, the Department has made progress in implementing a key GISRA
provision—establishing the agency’s Chief Information Officer (CIO) as the central management
focal point for information security activities. In mid-August 2001, OIG provided the
Department a draft of this report, which discussed our concern at that time that the Department’s
senior leadership had not agreed on what functional and organizational changes needed to be
made to comply with the law. In response to the draft report, the Under Secretary for
Management promptly reassessed the relative senior management roles and responsibilities of
the Bureau of Information Resource Management (IRM) and DS in managing information
security and directed actions consistent with GISRA requirements. Specifically, on August 20,
2001, on the recommendation of the Under Secretary for Management, the Deputy Secretary
issued a Delegation of Authority to the CIO to administer the Department’s information security
program. The CIO’s new role as the administrator of this program establishes the central
management focus on information security that is required by the law and puts the Department in
a better posture to protect its information technology assets from security risks. In its response to
OIG’s draft report, the Department stated that it believes that its actions will resolve the issues
raised in the report, while recognizing that a number of details implementing the changes remain
to be worked out over a 30-day period.
        Although the Department has not developed performance measures for its information
security program, which are required by both GISRA and the Government Performance and
Results Act (Public Law 103-62), in response to a draft of this report, the Under Secretary for
Management’s office said that by October 15, 2001, IRM, working with DS, will develop
measurable and meaningful performance measures for the Department’s information security
program. This is important because without useable performance measures, the Department is
unable to assess the adequacy and effectiveness of information security policies and procedures.
Further, it is hindered in its efforts to implement a results-based information security
management program.

BACKGROUND

        Information security is an important goal for any organization that depends on
information systems and computer networks to carry out its mission. The dramatic expansion in
computer interconnectivity and the rapid increase in the use of the Internet are changing the way
our government, the nation, and much of the world communicate and conduct business.
However, without proper safeguards, these developments pose enormous risks that make it easier
for people and groups with malicious intent to intrude into inadequately protected systems and
use such access to obtain sensitive information, commit fraud, disrupt operations, or launch
attacks against other computer networks and systems. Further, the number of people with
computer skills is increasing, and intrusion techniques and tools are readily available and
relatively easy to use. The rash of cyber attacks launched in February 2000 against major U.S.
firms and the global disruption caused by the “ILOVEYOU” virus in May 2000 illustrate the
risks associated with this new electronic age.

         Computer-supported government operations, including those at the Department, are also
at risk. Previous OIG and DS reports have identified persistent computer security weaknesses
that place a variety of critical and mission-essential Department operations at risk of disruption,
fraud, and unauthorized disclosure. The Department has been able to close four material
weaknesses previously reported under the Federal Manager’s Financial Integrity Act of 1982
(Public Law 97-255), and it has been able to close all recommended actions resulting from a
1998 General Accounting Office (GAO) audit of information security (GAO 98-145). However,
the Department recognizes that much more must be done to develop fully and ensure continuity
of its Systems Security Program.

        Faced with growing concerns about information security risks to the Federal
Government, the Congress passed and the President signed GISRA into law in late 2000.
GISRA provides: (1) a comprehensive framework for establishing and ensuring the effectiveness
of controls over information resources that support Federal operations and assets; and (2) a
mechanism for improved oversight of Federal agency information security programs.
Specifically, GISRA requires agencies to:

   •   identify, use, and share best security practices;
   •   develop an agency-wide information security plan;


                                                 2
    •   incorporate information security principles and practices throughout the life cycles of the
        agency’s information systems; and
    •   ensure the information security plan is practiced throughout all life cycles of the agency’s
        information systems.

       In addition, GISRA assigns the agency’s CIO authority and responsibility to administer
key functions under the statute, including:

    •   designating a senior agency information security official who shall report to the CIO;
    •   developing and maintaining an agency-wide information security program;
    •   ensuring that the agency effectively implements and maintains information security
        policies, procedures, and control techniques; and
    •   training and overseeing personnel with significant responsibilities for information
        security.

        Finally, in addition to a number of other provisions, GISRA requires each agency to have
performed an independent evaluation of its information security program and practices. The
Inspector General or the independent evaluator performing a review may use any audit,
evaluation, or report relating to effectiveness of the agency’s information security program to do
so. The agency is required to submit the independent evaluation, along with its own assessment,
to the Office of Management and Budget (OMB) as part of its annual budget request.

Overview of the Department’s Management Approach to Information Security

        The Department provides an overview of its management approach to information
security in its FY 2001 Systems Security Program Plan (the Plan) issued in May 2001. The
Plan—the first developed by the CIO and issued to the Department—was not revised to address
requirements resulting from GISRA’s enactment in late 2000 and does not reflect more recent
changes and delegations of authority within the Department to meet GISRA requirements.
However, the Plan establishes a baseline for the Department to build on in organizing its
information security program. It identifies the authorities and fundamental principles guiding
Information Technology (IT) security in the Department, outlines the roles and responsibilities of
the Department’s bureaus in the realm of IT, and briefly addresses the strategies for achieving
and maintaining a desirable IT security posture for the Department. The Plan applies to all
classified, unclassified, and sensitive but unclassified systems throughout the Department, its
domestic bureaus, offices, annexes, and posts worldwide.

      According to the Plan, three senior management officials have key roles in the
implementation and governance of security policy. Specifically:

•   The Under Secretary for Management is responsible for the control of all management
    resources, organizational structure, and assignment of functions within the Department.

•   The CIO is the senior accountable official for IT security. The establishment of the CIO as
    the focal point for IT security in the Department is intended to facilitate the life cycle
    management of the Department’s IT security program. This official is also the Designated

                                                 3
    Approving Authority responsible for making risk acceptance determinations for
    information technology on behalf of the Department.1 Based on mission criticality, the
    Designated Approving Authority may accept risk and grant either an approval to operate or
    an interim approval to operate if the system does not meet requirements. Also, the CIO
    promulgates IT security policy in concert with DS and oversees its implementation
    throughout the Department.

•   The Assistant Secretary for Diplomatic Security serves as the principal adviser to the
    Secretary of State and the Under Secretary for Management on all security matters. DS is
    responsible for defining threat levels relevant to IT assets and for developing IT security
    policy and standards consistent with threat level, national policy, and the National Institute
    for Standards and Technology’s guidelines in conjunction with the CIO. Also, the DS
    Deputy Assistant Secretary for Countermeasures and Information Security reports to the CIO
    on all matters regarding information security.2

According to the Plan, the CIO and DS need to work together to ensure that IT security is
adequately developed and implemented throughout the Department.

PURPOSE, SCOPE, AND METHODOLOGY

         Section 3535 of GISRA directs each agency to conduct an annual independent evaluation
of its information security program and practices beginning in FY 2001. In response to GISRA,
OIG conducted a review with the specific objectives of: (1) identifying the Department’s
policies and procedures for securing information on its information systems; and (2) determining
if the Department is in compliance with GISRA with regard to establishing and ensuring the
effectiveness of controls over information resources.

         To fulfill our review objectives, we developed two data collection surveys, which we
used to obtain general information about the Department’s information security program. Our
first survey determined the Department’s universe of systems. We sent a questionnaire to all
identified system owners at the Department asking general information security questions. The
owners were also asked to update the Department’s list of information systems to the best of
their knowledge. The second survey narrowed in on 16 major applications, facilities, and nodes3
to the Department’s infrastructure. Criteria for selection included: (1) mission criticality; (2)
Presidential Decision Directive 63 identification;4 and, (3) documentation availability. The

1
  On August 20, 2001, the Deputy Secretary of State delegated the Designated Approving Authority responsibilities
to the CIO.
2
  On August 20, 2001, the CIO designated the DS Deputy Assistant Secretary for Countermeasures and Information
Security as the Senior Agency Information Security Official. The Senior Agency Information Security Official
reports directly to the CIO regarding the implementation and maintenance of the Department’s information security
program and security policies.
3
  Node—A system connected to a network.
4
  Presidential Decision Directive 63 established a national effort to ensure the security of the critical infrastructure of
the United States. Under this Directive, the Department of State is responsible for protecting those of its facilities,
people, and systems that it deems essential to the national critical infrastructure, and for being the Foreign Affairs
Lead Agency.


                                                            4
questions in the questionnaire came directly from the National Institute of Standards and
Technology’s Self-Assessment Guide for Information Technology Systems, which OIG edited to
cover risk/vulnerability assessments, security controls, life cycle, certification and accreditation,
information system security plans, personnel security, contingency plans, data integrity,
documentation, and incident response capability. We interviewed the owners of the 16 systems
to collect documentation regarding their information systems security program. We did not
independently verify the information collected from the two surveys.

       To learn more about information system security at the Department, we reviewed OIG
and DS inspection reports, the OIG Presidential Decision Directive 63 audit, and General
Accounting Office reports on the Department. Our analysis grouped the recommendations in the
OIG and DS inspections into five major categories to report on areas that need more attention at
posts.

        In the Department, we also interviewed officials in DS, the Foreign Service Institute, and
the Bureaus of Financial Management and Policy, Information Resource Management, Consular
Affairs, and International Narcotics and Law Enforcement Affairs regarding their efforts for
securing their information systems.

        We did not test the Department’s information security controls during this evaluation, but
instead relied on the results of previous OIG reviews, General Accounting Office reports, and DS
inspections. Except as noted above regarding our use of data collection surveys, we followed
generally accepted government auditing standards and conducted such tests and procedures as
were considered necessary for the assignment. We obtained written comments on a draft of this
report from the Department and revised the report where appropriate. The Department’s
comments are included in Appendix A. Staff from our Information Technology Division
performed this evaluation from February 2001 through July 2001. Contributors to this report
were Frank Deffer, James Davies, Tim Fitzgerald, Robert Taylor, Anthony Carbone, Sharon
Hunter, Chris Watson, and Matthew Worner. Comments or questions about the report can be
directed to Mr. Deffer at defferf@state.gov or at (703) 284-2715 or to Mr. Davies at
daviesj@state.gov or at (703) 284-2673.




                                                  5
AUDIT FINDINGS

DEPARTMENT INFORMATION SECURITY WEAKNESSES IDENTIFIED
IN OIG AND DS EVALUATION REPORTS

       OIG and DS evaluation reports in 1999 and 2000 identified information security
weaknesses at the Department’s overseas posts, as well as at headquarters in Washington, DC.
Specifically, OIG reported on information security readiness at 35 overseas posts and on the
Department’s progress in implementing its Critical Infrastructure Protection Plan under
Presidential Decision Directive 63. DS conducted 54 evaluations on information security at
overseas posts between January 1999 and November 2000.

OIG Information Security Reports

         In FYs 1999 and 2000, as part of its comprehensive security inspection efforts, OIG
evaluated the information security programs and practices at 35 posts under the supervision of
one geographic bureau. OIG consolidated the results of these reviews in its classified May 2001
capping report (01-SEC-R-005). The results of the OIG inspections, as indicated in the capping
report, were mixed. OIG determined that 26 of the 35 posts inspected were adequately training
their U.S. systems users. However, in terms of effective information security procedures, most
of the posts fell short of Department standards. Specifically, only 10 posts had adequate (or
better) information security procedures in place, 24 had minimal security procedures, and 1 was
inadequate. OIG is currently following up on this report to determine the extent to which the
problems identified have been resolved.

        OIG identified additional weaknesses in the Department’s management of information
security in its June 2001 report5 on critical infrastructure protection. The report assesses the
Department’s progress in developing and implementing its cyber-based critical infrastructure
protection plan, as mandated by Presidential Decision Directive 63. Specifically, OIG reported
that the Department’s:

•   international outreach strategy is unnecessarily constrained, and, thus, does little to
    encourage the development of preventative measures needed to enhance global critical
    infrastructure protection;6
•   critical infrastructure protection plan provided a suitable framework for addressing
    minimum-essential infrastructure. However, the plan falls short because it does not address
    potential cyber vulnerabilities in its foreign operations or in its interagency connections (i.e.,
    such as between the Foreign Service National Payroll System and the Treasury Department);
    and
•   policies and programs concerning information security training awareness were not sufficient
    to ensure that employees are properly trained to secure the agency’s information systems.
5
  Critical Infrastructure Protection: The Department Can Enhance Its International Leadership and Its Own Cyber
Security (Report Number 01-IT-R-044)
6
  The Bureau of International Narcotics and Law Enforcement had responsibility for the critical infrastructure
protection outreach strategy at the time of OIG’s June 2001 report.

                                                       6
       The OIG report contains a number of recommendations to strengthen the Department’s
approach to critical infrastructure protection planning. The recommendations include:

•   assessing the vulnerability of the Department’s foreign operations to cyber-based disruptions;
•   scheduling and conducting security controls evaluations of all minimum-essential cyber
    infrastructures at least once every 3 years;
•   strengthening information security training policies and procedures through changes to
    appropriate sections of the Foreign Affairs Manual; and
•   expanding the Department’s international outreach approach to include a wide range of
    friendly countries requesting such assistance.

DS Information Security Reports

        The Office of Information Security Technology in DS conducted 54 readiness
evaluations on information security at overseas posts in 1999 and 2000. DS assessed the extent
to which posts were complying with Department information security requirements in a number
of key areas, including: (1) Security Program Planning and Management; (2) Access Controls
Effectiveness; (3) Application Software: Installation, Development, and Storage; (4) Security of
Operating System Software; and (5) Service Continuity Planning. The number of
recommendations in each category is shown in Table 1 below.
                                      Table 1
                          Summary of DS Computer Security
                             Report Recommendations

                    Recommendation
                                                     Number of Recommendations
                       Category
                                               Unclassified    Classified    Combined

              1. Security Program Planning
                                                         149            16        165
              and Management
              2. Access Controls
                                                         580           153        733
              Effectiveness
              3. Application Software:
              Installation, Development, and              12            11         23
              Storage
              4. Security of Operating
                                                          92            13        105
              System Software

              5. Service Continuity Planning             104            29        133

                        TOTALS                           937           222       1159


      Generally, DS reports on post information security readiness provide a mixed picture.
DS made the fewest number of recommendations (23) in the area of Application Software:

                                                 7
Installation, Development, and Storage, which suggests that posts were managing this area with
relatively few problems. DS made the largest number of recommendations in the area of Access
Controls, namely 733, or more than 63 percent of all the recommendations it developed in the
2-year period. The specific problems DS found at posts in this evaluation area include:

    •   (REDACTED) -------------------------------------------------------------------------------------
    •   --------------------------------------------------------------------------------------------------------
        --------------------------------------------------------------------------------------------------------
    •   --------------------------------------------------------------------------------------------------------
        --------------------------------------------------------------------------------------------------------
    •   emergency power-off controls related to air conditioning in the computer rooms are
        inaccessible or not installed; and
    •   access privileges of each application user are not being reviewed by post supervisors
        annually to verify that the privileges originally granted are still appropriate.

According to DS, periodic compliance reviews of its reports have consistently shown that many
of the reported issues are systemic in nature and require a change in culture of the Department’s
systems management and users to be resolved. Further, the Assistant Secretary for DS reported
to OIG that in order to bring about this change, and add a strong element of accountability across
all levels of users, DS is developing strategies to allow senior management to interject
accountability into the information systems operations and management.

MIXED RESULTS FROM OIG’S INFORMATION
SECURITY MANAGEMENT QUESTIONNAIRE

        OIG developed two data collection surveys that were used to determine general
information about the Department’s information security program. The purpose of the first
questionnaire was to identify the universe of systems operating throughout the Department and
to obtain information on IT security plans, assessments, and determinations that are required by
the OMB guidance, prior information security laws, and also by GISRA. Specifically, our first
questionnaire included requests for information on the following:

♦   Risk assessments—The identification and analysis of possible risks in meeting the agency’s
    objectives, which forms a basis for managing the risks identified and implementing
    deterrents.

♦ Security level determinations—Assessments that identify the specific security levels that
  should be maintained for IT systems hardware, software, and the information maintained or
  processed on systems.

♦ System security plan—A written plan that clearly describes the entity’s security program
  and policies and procedures that support it. The plan and related policies should cover all
  major systems and facilities and outline the duties of those who are responsible for
  overseeing security as well as those who own, use, or rely on the entity’s computer resources.



                                                        8
♦   Certification and accreditation—Attests that an information system meets documented
    security requirements and will continue to maintain the approved security posture throughout
    its life-cycle.

♦ Tests of security controls—Assessments of controls designed to protect computer facilities,
  computer systems, and data stored on computer systems or transmitted via computer
  networks from loss, misuse, or unauthorized access.

         According to our survey, the Department has 371 systems. Further, the survey indicates
there is significant room for improvement in information security management throughout the
Department. As Table 2 below indicates, nearly 70 percent of systems were reported to have
security level determinations, only 10 percent were reported to have security plans, and just 5
percent were reported to have been certified and accredited. See Appendix B for detailed survey
results.

                                          Table 2
                                Department Survey Results:
                         Key Information Systems Security Elements


                                        Department of State—OIG
                                       GISRA Questionnaire Results
                                      Summary Totals (Total Systems 371)
                                                            Number                 Percentage

                   Systems with Risk Assessments
                                                                      219              59%
                   Systems with Security Level
                                                                      256              69%
                   Determinations
                   Systems with Security Plans
                                                                       38              10%
                   Systems Certified and Accredited
                                                                       18               5%
                   Systems with Tested Security
                                                                      162              44%
                   Controls


        Our second questionnaire focused on 15 of the Department’s 83 mission-critical systems
and 1 mission-critical asset (the Beltsville Information Management Center, SA-26).7 We
selected these systems based on the guidance from the Critical Infrastructure Assurance Office
and related assessments. Specifically, our questions covered risk/vulnerability assessments,
security level determinations, system security plans, certification and accreditation, and system

7
  Responses to OIG’s first questionnaire reported 83 mission-critical systems out of the total of 371 systems
identified.

                                                          9
security controls. Also, in our second questionnaire, we asked about personnel security,
contingency plans, virus detection practices, hardware and software documentation, and incident
response capability.

       Overall, OIG’s second survey questionnaire results were mixed. As shown in Table 3
below, while 75 percent of the systems reported having done a risk assessment, only 13 percent
reported having a security plan in place, 44 percent reported that they had tested security
controls, and only 31 percent reported that they had been certified and accredited.

                                               Table 3
                               Mission-Critical System Survey Results

                                                Security                                Tested
                                     Risk                   Security   Certified and
                                                  Level                                Security
                                  Assessment                 Plans      Accredited
                                               Determined                              Controls

    American Citizen Services        Yes          Yes         No            No           No
    CableXpress                      Yes          Yes         No            No           No

    Classified Network               No           No          No            No           No
    Consular Lookout and
    Support System -                 Yes          No          No            No           No
    Enhanced
    Electronic Certification
                                     Yes          Yes         Yes          Yes           Yes
    System
    Foreign Service National
                                     No           No          No            No           No
    Payroll System
    Guard                            Yes          Yes         No           Yes           Yes
    INS Allocation
                                     Yes          No          No            No           No
    Management System
    Intelligence Research
                                     Yes          Yes         No           Yes           Yes
    Information System
    International Narcotics and
                                     Yes          Yes         Yes          Yes           Yes
    Law Enforcement System
    Open Sensitive but
    Unclassified Intra-              Yes          No          No            No           No
    Network
    Overseas Financial
                                     No           No          No            No           No
    Management System
    Overseas Security
    Advisory Council                 Yes          Yes         No            No           Yes
    Electronic Database
    Principal Officers
    Executive Management             Yes          Yes         No            No           Yes
    System
    State Annex 26                   Yes          Yes         No           Yes           Yes
    State Transportation and
                                     No           No          No            No           No
    Tracking System
           TOTAL YES
                                    75%           56%        13%           31%          44%
         (PERCENTAGE)




                                                    10
       On a more positive note, Table 4 below shows that 100 percent of the systems reported
having an incident response capability, 94 percent reported an active virus detection program, 88
percent reported having necessary hardware and software documentation, and 69 percent were
reported to have accurate position security reviews.

                                               Table 4
                               Mission-Critical System Survey Results

                                  Accurate
                                               Contingency    Automatic   Hardware and     Incident
                                  Security
                                               Plans Tested     Virus       Software      Response
                                  Position
                                               and Updated    Detection   Documentation   Capability
                                 Description

   American Citizen Services        Yes            No           Yes           Yes            Yes
   CableXpress                       No            No           Yes           Yes            Yes

   Classified Network               Yes            No           Yes           Yes            Yes
   Consular Lookout and
   Support System -                 Yes            Yes          Yes           Yes            Yes
   Enhanced
   Electronic Certification
                                    Yes            No           Yes           Yes            Yes
   System
   Foreign Service National
                                    Yes            No           Yes           Yes            Yes
   Payroll System
   Guard                            Yes            No            No           Yes            Yes
   INS Allocation
                                    Yes            No           Yes           Yes            Yes
   Management System
   Intelligence Research
                                     No            No           Yes           Yes            Yes
   Information System
   International Narcotics and
                                    Yes            Yes          Yes           Yes            Yes
   Law Enforcement System
   Open Sensitive but
   Unclassified Intra-              Yes            No           Yes            No            Yes
   Network
   Overseas Financial
                                    Yes            No           Yes           Yes            Yes
   Management System
   Overseas Security
   Advisory Council                  No            Yes          Yes           Yes            Yes
   Electronic Database
   Principal Officers
   Executive Management              No            Yes          Yes           Yes            Yes
   System
   State Annex 26                   Yes            No           Yes           Yes            Yes
   State Transportation and
                                     No            No           Yes            No            Yes
   Tracking System
          TOTAL YES
                                    69%           25%           94%           88%           100%
        (PERCENTAGE)



Recommendation 1: We recommend that the Chief Information Officer in coordination with
the Bureau of Diplomatic Security develop a strategy and timetable for ensuring that all of the
Department’s systems/applications address each of the key system security elements identified in

                                                         11
the tables above. This strategy and timetable should be completed by October 15, 2001, in order
for it to be included in the Department’s information security remediation plan, which is due to
the Office of Management and Budget by October 31, 2001.

PROGRESS MADE IN THE DEPARTMENT’S REASSESSMENT OF INFORMATION
SECURITY ROLES AND RESPONSIBILITIES

        Managing the increased risks associated with a highly interconnected computing
environment demands increased central coordination to ensure that weaknesses in one part of the
organization do not place the entire organization’s information assets at undue risk. Further,
centralized information security management can help ensure that: (1) information security risks
are considered in both planned and ongoing operations; and (2) senior management is fully
informed about security-related issues and activities affecting the organization. Toward that end,
GISRA establishes the agency’s CIO as the central management focal point for information
security activities. In addition to modifying existing requirements, GISRA adds new
requirements to the Department’s information security programs—all of which require a
reappraisal of information security management throughout the agency. The Department has
made progress in assessing information security roles and responsibilities, and has taken action
to meet GISRA requirements; however, a number of details remain to be worked out to ensure
full and effective implementation of the law.

        In mid-August 2001, OIG provided the Department a draft of this report, which discussed
its concern that the Department’s senior leadership had not agreed on what functional and
organizational changes need to be made to comply with the law. OIG recommended that the
Under Secretary for Management assess the Department’s organizational structure for managing
information security and identify the changes needed to comply with GISRA. In response to the
issues raised in the draft report, the Under Secretary for Management promptly reassessed the
relative senior management roles and responsibilities of IRM and DS in managing information
security and directed actions consistent with GISRA requirements. Subsequently, on August 20,
2001, the Department took the following key steps:

•   The Deputy Secretary issued a Delegation of Authority to the CIO empowering him to
    administer the Department’s information security program;
•   The CIO designated the Deputy Assistant Secretary for Countermeasures and Information
    Security as Senior Agency Information Security Official. This official will report directly to
    the CIO regarding the implementation and maintenance of the Department’s information
    security program and security policies; and
•   The Under Secretary for Management designated the CIO as the designated approving
    authority, responsible for making risk acceptance determinations for information technology
    on behalf of the Department.

The Department believes that these actions will resolve the issues raised in OIG’s draft report
regarding the agency’s information security program. The Department also recognizes that
further details implementing the new organizational arrangement remain to be worked out.



                                                12
         The Department’s current operating approach to information security roles and
responsibilities grew out of its response to a May 1998 General Accounting Office report8 that
outlined major information security weaknesses in the Department. The General Accounting
Office recommended that the Department establish a central information security unit to
facilitate, coordinate, and oversee information security in the Department. In January 2000, the
Under Secretary for Management issued a memorandum that: (1) named IRM as the authority
for the Department’s information security program; and (2) designated DS as responsible for
developing information security policy, with promulgating authority held jointly by DS and
IRM. Further, the memorandum laid out agreed-upon roles and responsibilities for DS and IRM
in four areas: IT security policy and implementation; information security awareness;
monitoring and evaluation; and risk assessments. This memorandum was superseded on August
20, 2001, by the Deputy Secretary of State’s delegation to the CIO of the authority to administer
all functions under GISRA.

         Under GISRA, many of the existing roles and responsibilities regarding information
security management remain unchanged. For example, DS will continue to: provide worldwide
computer security support; provide computer security training for security officers and systems
staff; and act in an advisory capacity to the CIO on IT security issues. IRM will continue its
virus protection role and operational monitoring of Department networks. However, the law and
the recent delegation of authority to the CIO significantly expand the role of the CIO in
managing the Department’s information security program. With the reporting relationship now
established between the DS Deputy Assistant Secretary for Countermeasures and Information
Security and the CIO, relative roles and responsibilities are being institutionalized. Specifically
in line with GISRA requirements, the CIO now has the delegated authority to administer all
information security functions, including:

•   designating a senior agency information security official who shall report to the CIO;
•   developing and maintaining an agency-wide information security program;
•   ensuring that the agency effectively implements and maintains information security policies,
    procedures, and control techniques;
•   training and overseeing personnel with significant responsibilities for information security;
    and
•   assisting senior agency officials concerning information security aspects of their respective
    program areas.

The CIO’s new role establishes the central management focus on information security that is
required by the law and puts the Department in a better posture to protect its information
technology assets from security risks.

       These new CIO responsibilities may necessitate additional organizational changes within
the Department as demonstrated by the CIO’s designation of the DS Deputy Assistant Secretary
for Countermeasures and Information Security to be the Department’s Senior Agency
Information Security Official. This designation requires the incumbent DS Deputy Assistant

8
 Computer Security: Pervasive, Serious Weaknesses Jeopardize State Department Operations, GAO/AIMD-98-
145, May 1998.

                                                   13
Secretary to report directly to the CIO regarding the implementation and maintenance of the
Department’s information security program and security policies. These newly-created, cross-
bureau responsibilities may require a reallocation of information security resources to support the
CIO. For example, the requirement that the CIO have responsibility for developing and
maintaining the Department’s information security program may require the transfer of specific
policy and planning resources from DS to IRM.

Recommendation 2: We recommend that the Under Secretary for Management ensure that the
Bureaus of Information Resource Management and Diplomatic Security resolve any remaining
issues regarding the establishment of the Chief Information Officer as the Department’s central
management focal point for information security and the appointment of a Senior Agency
Information Security Official. This effort should include an assessment of both the resources
and the reporting structure needed to support the newly-delegated Chief Information Officer
authorities and responsibilities. This completed effort should be included in the Department’s
information security remediation plan, which is due to the Office of Management and Budget by
October 31, 2001.

Department Response

        In commenting on a draft of this report (see Appendix A), the Department states that it
has assessed its organization and made determinations that will resolve the issues raised in the
report regarding the Department’s information security program. The Department cites its recent
actions (discussed above) as evidence that the Department is now complying with GISRA.
Further, the Department states in its comments that it does not agree that Recommendation 2
should remain in the report.

OIG Comment

        We agree that the Department’s recent actions to assign roles and responsibilities over its
information security program represent significant progress toward GISRA compliance, and we
have revised our draft report accordingly. We also agree that Recommendation 2 should not
remain as it was originally drafted; however, there are a number of significant details that need to
be addressed in order fully to implement the recommended changes to the agency’s information
security program. For example, the Department needs to determine the extent to which
organizational resources may need to be transferred between DS and IRM, as a result of GISRA
requirements. Further, the Department needs to assess how the specific DS and IRM roles and
responsibilities established by the January 2000 memorandum need to be revised in order to
comply with GISRA. In its response to our draft report, the Department acknowledges that
further details need to be worked out and it pledges to complete that work within 30 days.
Because of these outstanding issues related to the Department’s efforts to implement GISRA, we
have revised Recommendation 2 to reflect the need for the Under Secretary for Management to
continue his oversight of DS and IRM efforts to resolve these issues by October 31, 2001.




                                                14
INFORMATION SECURITY TRAINING

         Training is a key element in reducing risk and enhancing the Department’s risk-based
management approach for IT security. The Department of State’s FY 2001 Systems Security
Program Plan recognizes the importance of training and notes that the most comprehensive and
logical IT security program will prove ineffective in the absence of adequate and regularly
scheduled education and awareness efforts. It goes on to state that education and awareness
efforts ensure that users, IT professionals, managers, and senior executives understand and
appreciate both the complexity of this discipline and also its unique contribution to the success of
overall IT security efforts. We found that the Department conducts information security training
at all user levels, carries out an aggressive awareness program, and supports a complete range of
computer-based training tools. As shown in Table 5 below, DS has provided training to more
than 13,000 employees in the past 3 years to support information assurance and security.

                                  Table 5
                         EMPLOYEES TRAINED BY DS:
            IN SUPPORT OF INFORMATION ASSURANCE AND SECURITY


                                Domestic      Overseas      Executive     Totals
                                End Users     End Users    Management

                   FY1999         2232          1638           778         4648
                   FY2000         2481          1820           865         5166
                   FY2001         1861          1315           649         3825

                    Total number of personnel trained in FY 1999-2001     13,639



        However, the results of our evaluation show that adjustments in training curriculum could
further improve the Department’s training program and thereby reduce additional risk through
better understanding and awareness. For example, we were informed that inclusion of IT
security in the Department’s Managing State Projects curriculum would require minor revision
that would improve the Department’s management of information systems security projects. All
Department project managers are encouraged to take this 5-day intensive workshop, which,
according to the Foreign Service Institute course guide, provides a solid entry into the field of
project management.

CIO NEEDS TO DEVELOP INFORMATION SECURITY
PERFORMANCE MEASURES

        OIG found that the Department has not developed information security performance
measures to support strategic goals—key requirements of both the Government Performance and
Results Act and GISRA. Two important Government Performance and Results Act factors in
establishing measures are that each performance measure should be an indicator mainly used by
managers as they direct and oversee how a program is carried out, and should help managers
respond when problems arise. Without meaningful and measurable performance measures, the

                                                 15
Department will be unable to assess the adequacy and effectiveness of information security
policies and procedures effectively; further, it will be hindered in its efforts to implement a
results-based information security management program.

        In response to a draft of this report, the Under Secretary for Management’s office has
directed that IRM and DS incorporate Government Performance and Results Act requirements
into their GISRA compliance efforts. According to the executive assistant to the Under
Secretary for Management, information security performance measures are to be established
prior to October 15, 2001.

Recommendation 3: We recommend that the Chief Information Officer ensure that program
managers develop and use Government Performance and Results Act and Government
Information Security Reform Act performance measures in support of the Department’s
information systems security program.




                                                 16
Bureau of
Populations,
                          2      0    0%      0        0%    0    0%    0    0%    0    0%
Refugees, and
Migrations
Office of the Secretary   75    75    100%   75    100%      0    0%    0    0%   74    99%
Totals                    370   219   59%    256       69%   38   10%   18   5%   162   44%




                                                   3
